                                                                      Office               Hotline

  Office of Inspector General                                         202.692.2900
                                                                      peacecorps.gov/OIG
                                                                      OIG Reports
                                                                                           202.692.2915 ‫ ׀‬800.233.5874
                                                                                           Online Contact Form
                                                                                           OIG@peacecorps.gov




To:            Carrie Hessler-Radelet, Acting Director
               Daljit Bains, Chief Compliance Officer

From:          Kathy A. Buller, Inspector General

Date:          September 27, 2013

Subject:       Final Report on the Audit of Peace Corps/Zambia
               (IG-13-06-A)

Transmitted for your information is our final report on the audit of Peace Corps/Zambia.

Management concurred with all 12 recommendations. All 12 recommendations will remain open
pending confirmation from the chief compliance officer that the documentation identified in
management’s response has been received. In its response, management described actions it is
taking or intends to take to address the issues that prompted each of our recommendations. We
wish to note that in closing recommendations, we are not certifying that the agency has taken
these actions or that we have reviewed their effect. Certifying compliance and verifying
effectiveness are management’s responsibilities.

Our comments, which are in the report as Appendix D, address these matters. Please respond
with documentation to close the remaining open recommendation within 90 days of receipt of
this memorandum.

You may address questions regarding follow-up or documentation to Assistant Inspector General
for Audit Bradley Grubb at 202.692.2914 or to Lead Auditor Hal Nanavati at 202.692.2929.
Please accept our thanks for your cooperation and assistance in our review.

Attachment

cc:     Stacy Rhodes, Chief of Staff/Chief of Operations
        Elisa Montoya, White House Liaison/Senior Advisor to the Director
        Bill Rubin, General Counsel
        Carlos Torres, Acting Associate Director, Global Operations
        Dick Day, Regional Director, Africa
        Vince Groh, Chief of Operations, Africa
        Alyssa Karp, Chief Administrative Officer, Africa
        Joseph Hepp, Chief Financial Officer
        Paul Shea, Deputy Chief Financial Officer
        Samuel Taylor, Budget Officer
        Susanna Karap-Szilagyi, Director, Global Accounts Payable
        Brenda Goodman, Deputy Associate Director, Office of Health Services
Tom Kennedy, Country Director, Zambia
Jason Bennett, Director of Management and Operations, Zambia
Jennifer Parrish Taylor, Special Assistant to the Chief Compliance Officer
Zambia Country Desk
Peace Corps
Office of Inspector General




         Zambian Village




         Flag of Zambia



     Final Audit Report:
     Peace Corps/Zambia
         IG-13-06-A
                           September 2013
                                   EXECUTIVE SUMMARY
BACKGROUND
The Office of Inspector General (OIG) conducted an audit of Peace Corps/Zambia (hereafter
referred to as “the post”) from December 3-21, 2012.
Staff:
  • U.S. direct hires: 2
  • Foreign service nationals: 2
  • Full-time personal services
    contractors (PSCs):51
  • Part-time PSCs: 49

Spending (approx.):
 • FY 2012 post spending: $7.7 million
 • Average regional overhead: $401,000
                                                                  Map of Zambia
WHAT WE FOUND
The post’s financial and administrative operations required improvement in a number of areas
and did not fully comply with agency policies and applicable federal laws and regulations.
Specifically, the post:

    •   Did not fully utilize the point of sale exemption from Value Added Tax (VAT) and paid
        approximately $140,000 from October 2010 to December 2012 without claiming refunds.

    •   Processed an overpayment of approximately $19,700 in living allowances to a Volunteer.
        The overpayment went undetected because of inadequate monitoring of Volunteer
        reimbursements by the Office of Volunteer and Personal Services Contractor Services’
        (VPS). Further, VPS had not developed criteria or a systematic process for selecting and
        reviewing amounts paid/reimbursed to Volunteers.

    •   Lacked a process to allocate and track spending from President’s Emergency Plan for
        AIDS Relief (PEPFAR) and other funding sources, and inappropriately included VAT in
        the amount charged to PEPFAR funds.

    •   Allowed sub-cashiers in the provincial offices to maintain bank accounts in their personal
        name for agency funds without complying with federal law and Peace Corps policy.

We also noted issues with timeliness in submitting vouchers to headquarters, analyzing
Volunteer living survey responses, and improper business practices at the provincial offices.

RECOMMENDATIONS IN BRIEF
Our report contains 12 recommendations directed to both the post and headquarters, including:
that the post submit requests for VAT refunds and train the staff on the exemption and the
process; enhance controls over Volunteer allowances payments; discontinue the practice of


Final Audit Report: Peace Corps/Zambia                                                           i
opening bank accounts in staff names; and improve the tracking and recording of PEPFAR
expenses.

Our audit work led us to identify agency-wide control issues. As a result, we issued two
management advisory reports related to cost saving opportunities in VAT and the certification
process for non-recurring payments to Volunteers.

Management concurred with all 12 recommendations. All 12 recommendations will remain open
pending documentation described in Appendix C.




Final Audit Report: Peace Corps/Zambia                                                          ii
                                                    TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................................................................................................. i

BACKGROUND ...............................................................................................................................4

AUDIT RESULTS ............................................................................................................................4
          VALUE ADDED TAX ..................................................................................................................................... 4

          VOLUNTEER ALLOWANCES AND REIMBURSEMENTS .................................................................................... 5

          PEPFAR ...................................................................................................................................................... 8

          DISBURSEMENTS ........................................................................................................................................ 10

          PROVINCIAL OFFICES ................................................................................................................................. 11


QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE ..................................................13

LIST OF RECOMMENDATIONS ....................................................................................................14

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY..........................................................16

APPENDIX B: LIST OF ACRONYMS .............................................................................................17

APPENDIX C: MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT ..............................18

APPENDIX D: OIG COMMENTS..................................................................................................25

APPENDIX E: AUDIT COMPLETION AND OIG CONTACT ..........................................................26
                                             BACKGROUND
OIG conducted the audit of the post December 3-21, 2012. We previously performed an audit in
August 2005 and issued our report in May 2006 (IG-06-12-AE).

The first group of Volunteers arrived in 1993 and since then approximately 1,435 Volunteers
have served in Zambia. At the time of our audit, 274 Volunteers were working in the following
project sectors: education, community development, environment, agriculture, health, and
business. The post’s FY 2012 budget was approximately $7.7 million. This amount includes
significant funding from PEPFAR: $3.7 million with an additional $745,000 available from prior
years. In December 2012, the post had approximately 121 Volunteers funded by PEPFAR. The
Africa Region at headquarters incurs an additional $401,000 per overseas post. 1

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.



                                           AUDIT RESULTS
VALUE ADDED TAX

The post did not fully utilize the point of sale exemption from VAT and paid approximately
$140,000 in VAT from October 2009 to December 2012 without claiming reimbursement.

The Peace Corps country agreement with the government of Zambia exempts equipment and
supplies introduced into or acquired by the U.S. government in the republic of Zambia from all
taxes, custom duties, and other charges. The U.S. Embassy provides a book of VAT exemption
certificates to the post. The post issues a VAT exemption certificate to the vendor with the
purchase order, which allows the vendor to issue invoices without charging VAT (point of sale
(POS) exemption). If the Peace Corps inadvertently pays any VAT, the Zambian revenue
authority allows it to claim a refund within a certain period.

We noted instances where the post did not claim exemption from VAT when processing
payments from the imprest fund or by credit card. These payments primarily pertained to
amounts disbursed by its provincial offices, and payments by the post for fuel, utilities and
supplies. Further, the post did not file an application to claim refund for VAT paid from the
Zambian revenue authority. The total disbursements in Zambia between October 1, 2009 and

1
 The agency was unable to provide the total cost per post as certain costs are centrally-budgeted and managed by
headquarters offices including the salaries and benefits of U.S. Direct Hires. The Peace Corps Office of Budget and
Analysis provided the total cost of $11.2 million incurred by the Africa Region in direct support of its 28 overseas
posts in FY 2011, which is an average of $401,000 per post.



Final Audit Report: Peace Corps/Zambia                                                                                 4
December 31, 2012 were approximately $22.3 million U.S. dollar equivalent (USDE) and
payments by credit card and from imprest fund were approximately $1.7 USDE and $1.8 USDE,
respectively. Based on our analysis, we estimated that the post failed to claim a POS exemption
and paid approximately $140,000 USDE in VAT from October 1, 2009 to December 31, 2012.

                              Table 1. Estimated VAT Paid by the Post
                                     Payment Type   VAT (USDE)
                                     Citibank            $ 36,300
                                     Fuel                $ 66,200
                                     Imprest             $ 37,500
                                     Total VAT          $140,000

Per the director of management and operations (DMO), the post did not claim VAT exemptions
or file a claim for the refund primarily due to a lack of oversight and awareness about the POS
exemption available under provisions in the Zambia Value Added Tax Act. The provincial
offices did not claim the POS exemption because the post did not provide them with the VAT
exemption form. The post failed to claim POS from fuel because Zambian gas stations were not
able to process the VAT exemption.

During our audit, the DMO initiated corrective actions to claim the VAT refund and to distribute
the books of VAT exemption certificates to the provincial offices.

We have identified the issue of posts not claiming exemption and or refund for VAT in our
previous post audits. When posts fail to claim VAT exemptions and refunds, they overlook cost
savings opportunities. We issued the Management Advisory Report: Cost Savings Opportunity
on Value Added Tax to alert agency management and to make recommendations to the Office of
the Chief Financial Officer (OCFO) for better management of VAT at all posts.

    We recommend:

    1. That the director of management and operations accumulate the Value Added Tax
       receipts and file a refund claim with the appropriate Zambia revenue authorities in
       accordance with local laws and regulations.

    2. That the director of management and operations provide training to staff about applicable
       Value Added Tax exemptions and the process for claiming Value Added Tax refunds from
       the appropriate Zambian revenue authorities.


VOLUNTEER ALLOWANCES AND REIMBURSEMENTS

The Volunteer In-Country Allowance Payment System (VICA) is a web-based application used
by posts to order monthly, non-recurring allowances and reimbursements for Volunteers. VICA
allows posts to manage key Volunteer service dates by starting and stopping allowance payments
to Volunteers based on dates entered into the system.



Final Audit Report: Peace Corps/Zambia                                                            5
The volunteer support coordinator or the financial assistant at the post processes changes to
Volunteer information, allowances, and monthly reimbursement amounts for expenses. VICA
requires the DMO’s approval for the changes to be effective. The review and approval by the
DMO is the critical control to prevent and detect errors in payments made to Volunteers.

VICA generates an exception report to allow the staff in VPS to identify unusual payments and
obtain explanations from the post prior to approval of payment by the certifying official. A
financial management officer from VPS certifies the VICA reports submitted by the posts for
payment.

The post processed an overpayment of approximately $19,700 in living allowances to a
Volunteer, and the overpayment remained undetected due to inadequate monitoring.

In July 2012, the post overpaid approximately $19,700 USDE to a Volunteer for rent allowance.
The overpayment remained undetected until we selected the disbursement for review. Based on
further analysis, we noted that the amount paid to the Volunteer was unusually large. The
overpaid Volunteer received approximately $24,300 USDE while the remaining 261 Volunteers
received a total of approximately $96,700 USDE, or an average of $371 USDE per Volunteer.

According to the DMO, the error occurred when the financial assistant processed rent payments
for three months in VICA and mistakenly entered 114,000,000 instead of 11,400,000 Zambian
Kwacha. The Volunteer did not report the overpayment to the post.

After we identified the overpayment, the post issued a bill of collection for the amount due from
the Volunteer and collected the funds in January 2013. This error occurred because the post did
not conduct a proper review of allowances entered in VICA, and VPS did not implement
adequate controls and/or the controls did not operate effectively to prevent the overpayment.

Post Level Control. The review and approval by the DMO is a primary control point for
preventing and detecting errors in Volunteer payments. However, the DMO did not conduct an
adequate review of the data input in VICA and the post did not incorporate a process to reconcile
the allowances and reimbursements processed in VICA with supporting documents prior to
approving VICA submissions.

VPS Exception Report. VPS had established an exception report to assist in its review of
Volunteer payments and identify potential overpayments to Volunteers. However, this control
was not adequate because the report for this specified period included over 1,500 transactions,
which was too many for staff to do an in-depth review. Further, the exception report format was
complex and the exception amounts were listed in local currency only (did not include the
USDE), which made it difficult for the reviewer to identify large U.S. dollar amounts. After
analyzing the reasons for overpayment, OCFO modified the VICA exception report to include
exceptions based on a higher threshold and include the allowance amount in USDE.

This error remained undetected, because under current policy, it appears that neither the post,
region, or OCFO analyze allowances and reimbursements to Volunteers.




Final Audit Report: Peace Corps/Zambia                                                              6
VPS had not developed criteria or a systematic process for selecting and reviewing supporting
documents for amounts paid/reimbursed to Volunteers through VICA.

During our review, we noted that payment requests in VICA included: recurring Volunteer
allowances (such as living and leave allowances) based on pre-established rates for each
Volunteer listed by VPS and other Volunteer payments for recurring and non-recurring expenses
(such as housing or tutoring allowance). During fiscal years (FYs) 2010 and 2012, the post
processed over 10,700 transactions totaling $1.2 million USDE for other Volunteer payments
through VICA. Of these, 84 transactions were in excess of $2,500 representing over 19 percent
of other Volunteer payments totaling approximately $231,000 USDE. The post retains the
support for these reimbursed expenses and does not submit the support to VPS.

We analyzed the total disbursements made by the agency for FYs 2010, 2011, and 2012 and
noted that the FMO did not review approximately $3.6 million in transactions over $2,500. As a
result, we issued the Management Advisory Report: Processing Volunteer Reimbursements to
communicate this issue to agency management and recommend procedures in VPS to review
Volunteer reimbursements for all posts.

    We recommend:

    3. That the director of management and operations implement enhanced controls to verify the
       accuracy of Volunteer allowance and reimbursement amounts entered into the Volunteer In-
       Country Allowances system.

    4. That the Office of Chief Financial Officer develop an exception report that supports the
       financial management officer in the Office of Volunteer and Personal Services Contractor
       Services to identify errors and enhance controls over monitoring of Volunteer allowance
       payments through the Volunteer In-Country Allowances system.

The post did not complete an analysis of responses from the Volunteer living survey completed
in January 2012, until December 2013.

According to the Overseas Financial Management Handbook (OFMH), “The Post must conduct
a living allowance survey following the guidance in MS [Manual Section] 221, “Volunteer
Allowances,” and using the automated Living Allowance Survey Tool.”

According to the Peace Corps Manual Section (MS) 221:
        At least annually, the post must conduct a living allowance survey of the Volunteers, using the
        survey and analysis software issued by the Office of the CFO. This survey is intended to help the
        Country Director determine the most appropriate level of goods and services needed to ensure the
        health and effective service of Volunteers, and to determine if a different locality supplement is
        warranted for a particular site type or location.

The post should analyze the Volunteer survey responses in a timely manner and adjust Volunteer
living allowances accordingly. However, the post did not use the online Volunteer Living
Allowance Survey Tool and instead obtained the responses manually and had staff enter them in
Excel worksheets to complete the analysis, which delayed the process. In FY 2013, the post


Final Audit Report: Peace Corps/Zambia                                                                       7
completed the Volunteer survey using the automated survey tool to analyze the adequacy of
Volunteer allowances.

    We recommend:

    5. That the director of management and operations use the online Living Allowance Survey
       Tool to conduct analysis of Volunteer responses to determine if the current Volunteer living
       allowance is adequate.

PEPFAR

PEPFAR is a U.S. government initiative to address global HIV/AIDS. PEPFAR funds are
appropriated to the U.S. Department of State, and then distributed to implementing agencies,
including the Peace Corps.

The Peace Corps has received PEPFAR funding since FY 2004 and has leveraged it for vital
programming and training enhancements, including: supplemental Volunteer training, funding of
additional 27-month Volunteers, Peace Corps Response Volunteers 2, third year extensions, and
activities benefiting community members such as capacity building, grants, or community-
initiated activities.

Each post receiving PEPFAR funding has a country operational plan (COP) that outlines the
goals, objectives, indicators, activities, and budgets. From the COP, the implementation plan (IP)
captures all planned PEPFAR-funded activities and costs at the post level.

The Office of Global Health and HIV (OGHH) manages the PEPFAR program for the Peace
Corps. OGHH provides agency-level policy guidance, overall leadership, and general
supervision, direction, and coordination of the Peace Corps’ domestic and foreign HIV/AIDS
activities. It also provides technical and operational support to Peace Corps posts and
headquarters’ offices.

The post lacked a process to allocate and track spending from PEPFAR and other funding
sources.

The post received significant funding from PEPFAR. The total budgeted funding for FY 2012
was approximately $3.7 million with additional $745,000 available from prior years. In
December 2012, the post had approximately 121 Volunteers funded by PEPFAR. During our
audit, we could not verify the accuracy and completeness of amounts charged to PEPFAR by the
post for the reasons noted below.

Volunteer Allowances. We identified approximately 70 Volunteers where the post used multiple
sources (appropriated and PEPFAR) for funding Volunteer allowances. The post paid
approximately $406,000 USDE to these Volunteers and charged $222,000 USDE to appropriated
funds and $184,000 USDE to PEPFAR Funds, respectively. Between October 2010 and
2
  Response Volunteers are seasoned professionals the opportunity to undertake short-term, high-impact assignments in various
programs around the world.


Final Audit Report: Peace Corps/Zambia                                                                                         8
December 2012, the post paid approximately $3 million USDE in Volunteer allowances of which
approximately $1 million USDE (33 percent) was funded by PEPFAR. Normally, Volunteers are
assigned to a specific program and the Volunteer allowance-funding source is determined by the
nature of the program assigned. Per PEPFAR IP guidance for FY 2012 issued by OGHH, “the
posts that fund Volunteers should plan on an implementation period that extends through funded
Volunteers close of service (COS).”

The post did not implement procedures to verify the accuracy of the funding source for monthly
Volunteer allowance payments; prepare and retain supporting documents to justify changes made
to the funding source for Volunteers; or review allowance payment reports to detect and correct
errors made in Volunteer allowance payments. After our audit, the post established a review and
approval process to verify the accuracy of funding sources for Volunteer allowances.

Allocation for Individual Events. The post allocated direct spending for individual events
based on the nature of the event or the funding source associated with the Volunteers and staff
attending the event. However, based on our review of selected disbursements, we determined
that post miscoded the funding source for some expenses by assigning PEPFAR-related activities
to appropriated funds and vice versa. For example, during our limited sample testing, we noted
that the post charged approximately $4,500 in pre-service host family allowance for Volunteers
supported by appropriated funds to PEPFAR and approximately $7,900 in pre-service living
allowance for Volunteers supported by PEPFAR funds to appropriated funds.

Allocation of Common Expenses. The post lacked a system to allocate general spending on
supplies, medical, utilities, and vehicles to various funding sources. The post also lacked a
method to track whether the actual expenses charged to various funding sources complied with
the COP and budgets for each spending source. Therefore, we were unable to verify the actual
spending with respect to COP for prior years included in our review. In addition, the post has
developed an Excel worksheet to track amounts committed and disbursed for PEPFAR activities
against the annual IP.

    We recommend:

    6. That the director of management and operations implement a procedure to verify that
       Volunteer allowances are charged to appropriate funding source.

    7. That the director of management and operations develop a process to verify that expenses are
       charged to proper funding sources.

The post inappropriately included VAT paid to vendors in the amount charged to PEPFAR
funds.

The PEPFAR IP for FY 2012 issued by OGHH states:

        a. Value Added Tax (VAT), customs duties or other similar taxes may not be included in the cost
        of a purchase, unless subsequently reimbursed by the taxing authority.
        b. Follow normal post procedures for recovering VAT with appropriated funds and credit VAT
        reimbursements to the original fund.


Final Audit Report: Peace Corps/Zambia                                                                    9
As we noted in the section on Value Added Tax, the post did not claim the POS exemption from
certain invoices. When these invoices pertained to PEPFAR-related expenses, the post charged
the total amount paid to the respective PEPFAR funding source. The post allocated
approximately $370,000 USDE to PEPFAR, which included approximately $51,000 USDE for
VAT. As noted above, the agency is precluded from charging VAT to PEPFAR funds, so OCFO
must initiate appropriate action to correct the amounts overcharged.

    We recommend:

    8. That the post reconcile expenses charged to the President’s Emergency Plan for AIDS Relief
       to the country operating plan.

    9. That the Office of the Chief Financial Officer process appropriate entries to correct amounts
       overcharged to the President’s Emergency Plan for AIDS Relief.

DISBURSEMENTS

The post did not submit collections and vouchers with supporting documents to the Office of
Global Accounts Payable (OGAP) in a timely manner.

OFMH section 66.9 requires that the post send vouchers to OGAP on a weekly basis for payment
and retain reference copies for reconciliation

At the time of our review, we noted that the post had not submitted certain collections items for
nine weeks and paid vouchers for 11 weeks. For instance, the post did not submit:

    •   Supporting documents for 13 collection transactions amounting to approximately $2,600
        USDE. The dates of these vouchers were between October and December 2012.

    •   Twenty-five paid imprest vouchers and sub-vouchers amounting to approximately
        $41,000 USDE. The dates of these vouchers were between September and December
        2012.

The director of OGAP reminded the post of the requirement to submit vouchers in a timely
manner. The primary reason for the large number of open vouchers was that OGAP received a
large number of vouchers on a single day. When posts accumulate open transactions for several
weeks, it creates delays in processing vouchers at headquarters. Although the certifying officials
have not detected irregularities, OGAP has noted instances where the vouchers were carelessly
prepared and incomplete, in addition to being late.

According to the DMO, the delay in sending vouchers occurred when the newly hired cashier
was undergoing training to manage the cashiering operations. Delays also occurred because the
post has to obtain and consolidate documentation for disbursements made by its six provincial
offices.



Final Audit Report: Peace Corps/Zambia                                                           10
        We recommend:

    10. That the director of management and operations monitor open collection documents and
        initiate steps to close collections and vouchers in a timely manner and forward them to the
        Office of Global Accounts Payable on a weekly basis.

PROVINCIAL OFFICES

The post has six provincial offices in various provinces of Zambia. The primary purpose for
operating these provincial offices is to provide direct support to Volunteers serving throughout
the country. Zambia has limited transportation infrastructure and poorly maintained roads.
Provincial offices reduce the amount of time Volunteers spend traveling to the post for needed
resources and support. The provincial offices provide Volunteers access to basic medicines to
treat many common ailments and provide critical and timely support for sick and injured
Volunteers. Provincial offices have medicine cabinets stocked with a variety of medications for
Volunteers.

The post allowed Peace Corps volunteer leaders (PCVLs) to control prescriptions at provincial
offices and permitted the Volunteers to take medicine per instructions from the Peace Corps
medical officer at the post.

The post maintained a stock of selected prescription and non-prescription medications at all of its
provincial offices. The PCVL kept the medicine in a locked cabinet. When a Peace Corps
medical officer (PCMO) determined that a Volunteer needed a prescription medication available
at one of the provincial offices, the PCMO issued a prescription to the Volunteer. The PCVL
then reviewed the prescription and allowed the Volunteer access to the medical cabinet to pick
the medicine.

Typically, the PCMO dispenses the medical supplies either at the post or by sending them with
Peace Corps staff traveling to nearby Volunteer locations. The process of storing medical
supplies at the provincial office and having PCVLs dispense the medicine increases the risk that
medical supplies may be misused and may lose accountability. During our visit, we noted that
neither the PCMO nor the post management provided adequate training to the PCVL to manage
medical inventory and track medications received and taken by other Volunteers. In addition, the
medication was stored in plastic Ziploc bags or unsealed bottles, the expiration dates were
handwritten, and one of the medicines was expired.

The Office of Health Services (OHS) at headquarters was aware of this practice, but had not
documented how to mitigate any potential risks from allowing a PCVL to manage prescription
medicine at the provincial offices. After our observation, the country director and the PCMO
contacted OHS to obtain adequate authorization, guidance, and to formalize the procedures and
enhance controls over medical supplies issued to provincial offices.




Final Audit Report: Peace Corps/Zambia                                                          11
    We recommend:

    11. The country director, in coordination with the Office of Health Services, develop procedures
        for storing and dispensing medical supplies at provincial offices and train the Peace Corps
        volunteer leaders on these procedures.

Sub-cashiers in the provincial offices maintained bank accounts in their personal name for
agency funds without the U.S. Department of State’s Financial Service Center approval.

One or two personal services contractors (PSCs) manages the provincial offices. These offices
maintain a small amount of imprest funds to successfully conduct their assignments and to have
funds available in case of emergencies. During our visit to the provincial office in the central
region, we noted that the sub-cashier designee was a PSC working as the provincial general
services assistant.

Title 31 U.S.C. section 3302 states:

        (a) Except as provided by another law, an official or agent of the United States Government
            having custody or possession of public money shall keep the money safe without-

              (1) Lending the money;
              (2) Using the money;
              (3) Depositing the money in a bank; and
              (4) Exchanging the money for other amounts.

OFMH chapter 13 states:

        Peace Corps posts may not open/maintain establish bank accounts overseas without the
        authorization of the Departments of State (State) and/or Treasury (Treasury).

        A cashier may not place impress funds in a personal bank account or safe deposit box unless
        specifically authorized to do so by the Secretary of the Treasury or designee.

When we conducted the cash count of funds at the provincial office, we noted that the sub-
cashier had deposited approximately $200 USDE into a local bank account. However, when we
reviewed the bank statement to confirm the balance, we noted that the bank account was in the
personal name of the PSC instead of the Peace Corps. The post did not obtain approval from the
U.S. Department of State’s Financial Service Center to operate a bank account in the name of the
sub-cashier and, therefore, did not comply with Federal law and Peace Corps policy.

    We recommend:

    12. That the director of management and operations discontinue the practice of opening bank
        accounts in the name of staff members or request that the director of the Office of Global
        Accounts Payable obtain authorization from the U.S. Department of State’s Financial Service
        Center to operate bank accounts in the names of staff members.




Final Audit Report: Peace Corps/Zambia                                                                12
                            QUESTIONED COSTS AND
                         FUNDS TO BE PUT TO BETTER USE
We identified the following funds to be put to better use and questioned costs during the course
of the audit:

                                         Funds to be Put to Better Use

    Recommendation
                                                    Description                        Amount
        number
          1                Unclaimed VAT refunds                                       $140,000

We identified the following questioned costs during the course of the audit.

                                              Questioned Costs

    Recommendation
                                                    Description                        Amount
        number
          4                Overpayment of rent allowance                               $19,300

The Inspector General Act defines funds to be put to better use and questioned costs as the
following:

    •   Funds to be put to better use: funds that could be used more efficiently if management
        took actions to implement and complete the recommendation.

    •   Questioned costs: costs that are questioned because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or document governing
        expenditure of funds; a finding that, at the time of the audit, such cost is not supported by
        adequate documentation; or a finding that the expenditure of funds for the intended
        purpose is unnecessary or unreasonable.




Final Audit Report: Peace Corps/Zambia                                                             13
                             LIST OF RECOMMENDATIONS
We recommend:

    1. That the director of management and operations accumulate the Value Added Tax
       receipts and file a refund claim with the appropriate Zambia revenue authorities in
       accordance with local laws and regulations.

    2. That the director of management and operations provide training to staff about applicable
       Value Added Tax exemptions and the process for claiming Value Added Tax refunds from
       the appropriate Zambian revenue authorities.

    3. That the director of management and operations implement enhanced controls to verify the
       accuracy of Volunteer allowance and reimbursement amounts entered into the Volunteer In-
       Country Allowances system.

    4. That the Office of Chief Financial Officer develop an exception report that supports the
       financial management officer in the Office of Volunteer and Personal Services Contractor
       Services to identify errors and enhance controls over monitoring of Volunteer allowance
       payments through the Volunteer In-Country Allowances system.

    5. That the director of management and operations use the online Living Allowance Survey
       Tool to conduct analysis of Volunteer responses to determine if the current Volunteer living
       allowance is adequate.

    6. That the director of management and operations implement a procedure to verify that
       Volunteer allowances are charged to appropriate funding source.

    7. That the director of management and operations develop a process to verify that expenses are
       charged to proper funding sources.

    8. That the post reconcile expenses charged to the President’s Emergency Plan for AIDS Relief
       to the country operating plan.

    9. That the Office of the Chief Financial Officer process appropriate entries to correct amounts
       overcharged to the President’s Emergency Plan for AIDS Relief.

    10. That the director of management and operations monitor open collection documents and
        initiate steps to close collections and vouchers in a timely manner and forward them to the
        Office of Global Accounts Payable on a weekly basis.

    11. The country director, in coordination with the Office of Health Services, develop procedures
        for storing and dispensing medical supplies at provincial offices and train the Peace Corps
        volunteer leaders on these procedures.




Final Audit Report: Peace Corps/Zambia                                                          14
    12. That the director of management and operations discontinue the practice of opening bank
        accounts in the name of staff members or request that the director of the Office of Global
        Accounts Payable obtain authorization from the U.S. Department of State’s Financial Service
        Center to operate bank accounts in the names of staff members.




Final Audit Report: Peace Corps/Zambia                                                       15
      APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

The audit of PC/Zambia covered fiscal years 2010-2013. While at the post, we interviewed key
staff, including: the country director, the DMO, the lead PCMO, and administrative support staff.
As part of the audit process, we briefed the country director and DMO. At headquarters, we
conducted a general briefing for regional staff. We communicated issues and areas of
improvement to senior staff at post and Peace Corps management at headquarters and included
significant issues noted during our audit in this report. We primarily reviewed the following
processes and associated controls:

        •    Bills of Collection
        •    Contracts and leases
        •    Cash and Non-cash payments
        •    Imprest fund
        •    Credit card transactions
        •    Information technology general controls
        •    Medical supplies
        •    Personal property and vehicles
        •    Personal services contracts
        •    Volunteer payments

We relied on computer-processed data from the post’s accounting system and verified such data with
hard-copy documents, as required. While we did not test the system’s controls, we believe the
information generated by the system and used by us was sufficiently reliable for our audit objective.

Our audit criteria was derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, Medical Technical Guidelines, and other
Peace Corps policies and initiatives.




Final Audit Report: Peace Corps/Zambia                                                          16
                         APPENDIX B: LIST OF ACRONYMS
   CD                            Country Director
   COP                           Country Operating Plan
   COS                           Close of Service
   DMO                           Director of Management and Operations
   FMO                           Financial Management Officer
   FY                            Fiscal Year
   OCFO                          Office of Chief Financial Officer
   OFMH                          Overseas Financial Management Handbook
   OGAP                          Office of Global Accounts Payable
   OGHH                          Office of Global Health and HIV
   OIG                           Office of Inspector General
   PCMO                          Peace Corps Medical Officer
   PCVL                          Peace Corps Volunteer Lead`
   PEPFAR                        from President’s Emergency Plan for AIDS Relief
   POS                           Point of Sale
   PSC                           Personal Services Contractor
   USDE                          U.S. Dollar Equivalent
   VAT                           Value Added Tax
   VICA                          Volunteer In-Country Allowance
   VPS                           Volunteer and PSC Services




Final Audit Report: Peace Corps/Zambia                                             17
           APPENDIX C: MANAGEMENT’S RESPONSE TO THE
                                   PRELIMINARY REPORT




Final Audit Report: Peace Corps/Zambia                  18
Recommendation 1
That the Director of Management and Operations accumulate the Value Added Tax
receipts and file a refund claim with the appropriate Zambia revenue authorities in
accordance with local laws and regulations.


        Response:         Concur

        Peace Corps Zambia is only able to collect Value Added Tax (VAT) on receipts issued
        with a Tax Invoice, as opposed to the normally provided Cash or Sales Invoice, date-
        stamped on the day of the transaction and submitted less than a year after the date of the
        transaction. In order to provide the Tax Invoice, vendors must be registered with the
        Zambian Revenue Authority (ZRA) and not all of Peace Corps’ historical vendors have
        been registered, preferring to legally operate and report income along with the
        proprietor’s individual earnings. In these cases, VAT is assumed by the ZRA as being
        paid, but cannot be collected as the vendor cannot provide a Tax Invoice.

        New process in place as of September 2013: Peace Corps Zambia has been issued “blue
        books” or stamped VAT receipts which can be issued to ZRA-registered vendors at the
        point of sale to avoid paying VAT at the point of sale. If the blue book is not available,
        staff have been trained to collect Tax Invoices and process them through the Peace Corps
        Zambia Lusaka office. Outside of Lusaka, Peace Corps Zambia may encounter
        difficulties purchasing some basic site development supplies from ZRA-registered
        vendors. Provincial staff will be supported in September and October by Lusaka staff
        visits to establish ZRA-vendors who can act as intermediate retailers. Peace Corps
        Zambia has established the expectation that 100% of VAT will be avoided at the point of
        sale or subsequently collected. We have provided training and blue books to Lusaka and
        provincial staff. The only challenge remaining is establishing normal business operations
        with ZRA-registered vendors who can support all our Agency needs in country.

        Documents Submitted: Guidelines for diplomatic agencies describing the Value Added
        Tax (VAT) reimbursement request process.


        Status and Timeline for Completion: Completed September 2013


Recommendation 2
That the director of management and operations provide training to staff about applicable
Value Added Tax exemptions and the process for claiming Value Added Tax refunds from the
appropriate Zambian revenue authorities.


        Response:         Concur

        Post received special permission from the Embassy to hold multiple blue books, thereby
        allowing provincial offices to avoid VAT payments at the point of sale. All relevant


Final Audit Report: Peace Corps/Zambia                                                           19
        personnel in Lusaka and the Provinces have been trained by the Financial Assistant (FA).
        The FA had gained expertise in filing the VAT reimbursement request for post and is also
        responsible to analyze past transactions for collectable VAT and missing receipts.
        Training was provided during August 2013 in Lusaka for the Provincial staff.

        Documents to be Submitted: Provincial team training schedule and staff who received
        training

        Status and Timeline for Completion: Completed September 2013


Recommendation 3
That the director of management and operations implement enhanced controls to verify the
accuracy of Volunteer allowance and reimbursement amounts entered into the Volunteer In-
Country Allowances system.


        Response:         Concur

        Peace Corps Lusaka trained and transitioned the VICA system maintenance and process
        to the Volunteer Support Liaison (VSL), Claudette Thornicroft, as supervised by the
        Senior Director for Management and Operations (SDMO). With further training of the
        VSL and review by the SDMO, Peace Corps Zambia is providing adequate oversight to
        the payments processed to volunteers through VICA.

        Documents Submitted: SOW for Volunteer Liaison

        Status and Timeline for Completion: Completed April 2013


Recommendation 4
That the Office of Chief Financial Officer develop an exception report that supports the
financial management officer in the Office of Volunteer and Personal Services Contractor
Services to identify errors and enhance controls over monitoring of Volunteer allowance
payments through the Volunteer In-Country Allowances system.

        Response:         Concur

        The exception report that was used at the time of audit to identify errors and enhance
        controls in VICA was cumbersome and did not add sufficient oversight to the payment
        process. In response to this finding, CFO has already implemented several exception
        reports to identify and select for review any payments that exceed 2500 USD. In
        addition, CFO will be reviewing the efficacy of these reports and will enhance the reports
        as needed.

        Documents Submitted: Exception report



Final Audit Report: Peace Corps/Zambia                                                          20
        Status and Timeline for Completion: Completed September 2013

Recommendation 5
That the director of management and operations use the online Living Allowance Survey Tool
to conduct analysis of Volunteer responses to determine if the current Volunteer living
allowance is adequate.

        Response:         Concur

        Post has been issuing Living Allowance surveys over the past years, but has not been
        using the LA Survey Tool. The next LA survey will be implemented using the LA survey
        tool and the spreadsheets have already been created. In addition, prior year surveys were
        entered into the LA survey tool to have historical data.

        Documents Submitted: September – November 2013 electronic survey form

        Status and Timeline for Completion: To be completed December 2013


Recommendation 6
That the director of management and operations implement a procedure to verify that
Volunteer allowances are charged to appropriate funding source.

        Response:         Concur

        Post has confirmed that the current funding sources utilized for volunteer allowances are
        now correct. Post has implemented a tracking worksheet for Volunteer allowances and
        funding sources.

        Documents Submitted: Tracking worksheet for Volunteer allowances

        Status and Timeline for Completion: Completed April 2013


Recommendation 7
That the director of management and operations develop a process to verify that expenses are
charged to proper funding sources.

        Response:         Concur

        Peace Corps Zambia staff entering obligations, liquidations or disbursements, as well as,
        VICA reimbursements have been trained on the use of VICA and VIDA to confirm the
        status of volunteers as it relates to which fund should be charged for specific volunteer
        expenses. Further, the Budget Analyst has been removed from responsibilities for routine
        operations so he can act as an in-house consultant and auditor of our processes as it
        relates to charging specific funds. With our fast moving and complicated post operations,



Final Audit Report: Peace Corps/Zambia                                                         21
        this process requires ongoing diligence of the Administrative staff members as well as
        active communication with the programming and training staff.

        Status and Timeline for Completion: Completed April 2013


Recommendation 8
That the post reconcile expenses charged to the President’s Emergency Plan for AIDS Relief to
the country operating plan.

        Response:         Concur

        All PEPFAR budgets have been moved into Peace Corps Oracle based system called
        Hyperion. In Hyperion, there is a tracking tool that allows post to generate a report that
        can compare actual expenditures to the Country Operating Plan’s budget. In addition, this
        tool allows posts to create working planners to track and project expenses. This working
        planner can be compared to the implementation plan and the current budget authority.
        This system is synched to our FOR Post accounting system, so all expenses charged to
        PEPFAR show up in Hyperion immediately.

        Documents Submitted: Hyperion report of Actuals versus Implementation Plan

        Status and Timeline for Completion: Completed September 2013


Recommendation 9
That the Office of the Chief Financial Officer process appropriate entries to correct amounts
overcharged to the President’s Emergency Plan for AIDS Relief.

        Response:         Concur

        The Office of the Chief Financial Officer will verify that the calculations of PEPFAR
        VAT expenses are correct. From there, we will create journal entries to move these VAT
        expenses out of PEPFAR. The VAT that was paid under PEPFAR will be credited back.

        Documents to be Submitted: Journal vouchers

        Status and Timeline for Completion: To be completed December 2013


Recommendation 10
That the director of management and operations monitor open collection documents and
initiate steps to close collections and vouchers in a timely manner and forward them to the
Office of Global Accounts Payable on a weekly basis.

        Response:         Concur



Final Audit Report: Peace Corps/Zambia                                                          22
        Post has put a system in place that Cashier Bureau Vouchers must be closed at a
        minimum of once a week and immediately be signed and sent to HQ for processing.

        Documents Submitted: Copies of the 365 and 99 cashier reports

        Status and Timeline for Completion: Completed April 2013


Recommendation 11
The country director, in coordination with the Office of Health Services, develop procedures
for storing and dispensing medical supplies at provincial offices and train the Peace Corps
volunteer leaders on these procedures.

        Response:         Concur

        Guidance was given to PC Zambia on July 17, 2013 in the form of a memo from OHS
        outlining procedures for storing and dispensing medications at the provincial houses
        which includes training of the Peace Corps Volunteer Leaders assigned to each house. A
        copy of that notification (email) is attached. Peace Corps Zambia conducted a training of
        the provincial staff and PCVLs on August 26/27.

        Training of PCVLs and Provincial staff completed. Procedures are in place. Air
        conditioning units need to be installed in each of the provincial houses. Post expects the
        air-con units to be installed in all the provincial houses by November 15, 2003.

        Documents Submitted:
           • Confidentiality agreement for PCVLs
           • Email from OHS outlining procedures
           • Prescription medications to add to med kits
           • Procedure for monitoring the use of the Medicine Cabinets
           • Regional house Medicine Cabinet inventory
           • Regional house temperature record

        Status and Timeline for Completion: To be completed November 2013


Recommendation 12
That the director of management and operations discontinue the practice of opening bank
accounts in the name of staff members or request that the director of the Office of Global
Accounts Payable obtain authorization from the U.S. Department of State’s Financial Service
Center to operate bank accounts in the names of staff members.

        Response:         Concur

        Peace Corps Zambia expects to submit all documentation for retroactive delegations by
        October 30, 2013. Further Post expects to submit documentation related to accounts in



Final Audit Report: Peace Corps/Zambia                                                          23
        the name of Peace Corps by December 2013. The delay for the Peace Corps accounts
        relates to lack of clarity from Barclay’s Bank as to what they need to address this issue.
        That clarification was received following a meeting between Peace Corps and Barclay’s
        Bank on September 3.

        Documents Submitted: Retroactive delegation from Peace Corps Washington for
        existing accounts

        Documents to be Submitted: Application to accept new accounts for Provincial Offices
        in the name of Peace Corps.

        Status and Timeline for Completion: To be completed by December 2013




Final Audit Report: Peace Corps/Zambia                                                           24
                            APPENDIX D: OIG COMMENTS
Management concurred with all 12 recommendations. In its response, management described
actions it is taking or intends to take to address the issues that prompted each of our
recommendations. All 12 recommendations will remain open pending confirmation from the
chief compliance officer that the documentation identified in management’s response has been
received. Certifying compliance and verifying effectiveness are management’s responsibilities.
However, when we feel it is warranted, we may conduct a follow-up review to confirm that
action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Zambia                                                           25
      APPENDIX E: AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                         Lead Auditor Hal Nanavati performed the audit of Peace
                                         Corps/Zambia.




                                         Bradley Grubb
                                         Assistant Inspector General for Audit


OIG CONTACT                              If you wish to comment on the quality or usefulness of this
                                         report to help us strengthen our product, please e-mail
                                         Assistant Inspector General for Audit Bradley Grubb, at
                                         bgrubb@peacecorps.gov, or call him at 202.692.2914.




Final Audit Report: Peace Corps/Zambia                                                                 26
 Help Promote the Integrity, Efficiency, and
      Effectiveness of the Peace Corps
  Anyone knowing of wasteful practices, abuse, mismanagement,
   fraud, or unlawful activity involving Peace Corps programs or
personnel should contact the Office of Inspector General. Reports or
             complaints can also be made anonymously.




                         Contact OIG

                         Reporting Hotline:
          U.S./International:      202.692.2915
          Toll-Free (U.S. only):   800.233.5874

          Email:                   OIG@peacecorps.gov
          Web Form:                peacecorps.gov/OIG/ContactOIG

          Mail:                    Peace Corps Office of Inspector General
                                   P.O. Box 57129
                                   Washington, D.C. 20037-7129



                     For General Information:
          Main Office:             202.692.2900
          Website:                 peacecorps.gov/OIG
            Twitter:               twitter.com/PCOIG
